No.
IN THE
SUPREME COURT OF THE UNITED STATES
QIHUI HUANG
Petitioner,
v.

AJ1T VARADARAJ PAi
Respondent
Chairman of the Federal Communication
Commission (FCC).
On Petition for Writ of Certiorari
to United States Court of Appeals
for the District of Columbia Circuit

l\V V;

PETITION FOR A WRIT OF CERTIORARI

Dated: September 11, 2019

Qihui Huang, M.S.
P.0. Box 34014
Bethesda, MD 20827
(240) 423-0406
qhh@hotmail.com
Petitioner, Pro Se

QUESTIONS PRESENTED
Ql. Whether lower court could not comply rulings
of Supreme Court on:
(a) “[Respondent’s] silence implies consent, not the
opposite—and courts generally behave accordingly,
affirming without further
discussion when they
agree, not when they disagree,” Kernan v. Hinojosa,
2016, 136 S.Ct. 1603; Ylst v. Nunnemaker, 1991, 111
S.Ct. 2590; and about 33 U.S. courts complied it.
(App. 1.7)?
(b) McDonnell Douglas burden-shifting framework;
and Price Waterhouse v. Hopkins 109 S.Ct. 1775,
(1989). And
(c) “retaliation...constitute crimes and are therefore
especially risky”, Burlington Northern and Santa
FeRy. Co. v. White,2006,126 S.Ct. 2405.
Q2. Whether anyone or lower court could prevent,
relieve, comfort, or assist in prevent Respondent’s
punishment, when he deprived Petitioner of life
without due process of law, under Constitution 5th
and 14th Amendments?
Q3. Whether anyone or lower court could alter,
destroy, mutilate, or conceal both parties consented
important core material facts or objects?
Q4. Whether the bodily or personal injured victim
could seek compensations at civil court or justice, on

I

ii

discriminations and retaliations, which caused by
defendant “not acting under color of law, willfully
caused many bodily injuries to Petitioner, because of
the race or national origin”?
LIST OF PARTIES
The Petitioner in this case is Qihui Huang, pro
se. The Respondent in this case is Ajit Varadaraj
Pai, the Chairman of Federal Communications
Commission (FCC). And Pai is responsible for
actions of his two managers of branch chief Martin
Doczkat and division chief Walter Johnston.

iii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

LIST OF PARTIES

1

TABLE OF CONTENTS

m

TABLE OF AUTHORITIES
LIST OF APPENDICEVIS

v
vi

OPINIONS AND ORDERS BELOW

1

JURISDICTION

1

CONSTITUTIONS AND STATUTES INVOLVED 2
STATEMENT OF THE CASE

2

A. Specialty

2

B. Backgrounds

2

1. Respondent willfully caused many bodily
injuries and substantial risks of death to
5
Petitioner.
2. Respondent has duties to, but he did not,
respond for Petitioner’s sickness, which
caused by his discriminations.
6
3. Respondent discriminatorily concluded
Petitioner’s performance was unacceptable
7
GS-15 and bad.
10
C. Court procedures
REASONS FOR GRANTING THE WRIT

12

Ql. Comply Supreme Court’s rulings.
(a) “behave accordingly, affirming without
12
further discussion”.

iv

16
(b) discriminations and retaliations.
17
(c) “retaliation ... constitute crimes”.
Q2. Const. 5th and 14th Amend, protect victim’s life.
18
19
Q3. Alter or conceal facts or objects.
19
Q4. Seek civil remedies on criminal actions.
21
5. Involve significant public concerns.
6. Comments - Request “EQUAL JUSTICE UNDER
LAW” a phrase engraved on the front of this building.
CONCLUSION

22
23

APPENDICES

la

LIST OF APPENDICES (“App.”)

page

A. Order denying petition for rehearing of D.C.
Circuit, on April 16, 2019, (No. 17-5290,
la
September Term, 2018).
B. Order of D.C. Circuit, on January 30, 2019. (No.
2a
17-5290, September Term, 2018).
C. Order of D.C. District, on October 19, 2016, (case
7a
l:16-CV-00398-JEB).
D. Memo, of D.C. District, on October 19, 2016, (case
l:16-CV-00398-JEB).
8a
E. Order of D.C. District, on September 15, 2017,
(case l:16-CV-00398-JEB).
38a
F. Memo. D.C. District, on September 15, 2017,
39a
(case l:16-CV-00398-JEB).
G. Petitioner’s Brief at D.C. Circuit, on June, 28,
59a
2018.
H. A list of organizations, who concern Petitioner’s
97a
life and support her lawsuits.
I. Constitutions and Statutes Involved

103a

vi

TABLE OF AUTHORITIES
page

Cases

Burlington Northern and Santa Fe Ry. Co. v. White,
17
2006,126 S.Ct. 2405.
Davis v. Passman, 442 U.S. 228, 246 (1976)

22

Erickson v. Pardus, 551 U.S. 89, 93 (2007)

22

Heffernan v. City of Paterson, 136 S. Ct. 1412, 1419
22
(2016)
Kernan v. Hinojosa, 2016, 136 S.Ct. 1603.
3, 4, 8, 9, 11, 12, 13, 14,18,19
22

Waters v. Churchill, 511 U.S. 661, 674 (1994)

Yick Wo v. Hopkins, 118 U.S. 356, 374 (1886)
22

Ylst v. Nunnemaker, 1991, 111 S.Ct. 2590.
3,4,8,9,11,12,13,14,18,19
22
Ziglar v. Abbasi, 137 S. Ct. 1843, 1874 (2017)
There are about 33 cases cited at page 62a to 68a.
Statutes
18 U. S. C § 249 Hate crime acts.
18 U. S. C § 4
28 U. S. C. §1254 (1)

2, 4, 5, 19
15, 21
1

vii

42 U. S. C. § 2000e et seq.

1, 15

Maryland Criminal Law § 3-204 Reckless
4, 5, 13, 14, 19
endangerment (a)(1).
NO FEAR ACT;

2

The Constitution Fifth Amendment

2, 3, 4,15

The Constitution First Amendment

2, 15, 18

The Constitution Seventh Amendment
The Constitution Fourteen Amendment

15, 18
2,3,4,15,18

Title VII of the Civil Rights Act of 1964, as amended
2

1

/. Petitioner, multiple mediums (one has about
195,000 subscribers), and her many supporters,
(there are about 30 organizations, which estimate
leading and representing more than 22,400 peoples,
(see App. H) respectfully request to grant this
petition.
OPINIONS AND ORDERS BELOW
The final order of the U.S. Court of Appeals for
the District of Columbia Circuit, is in App. A. (case
No. 17-5290 September Term, 2018). The
unpublished Order of the U.S. District Court for the
District of Columba Circuit is in App. B. Petitioner’s
Brief is in App-G.
The first Order and Memorandum for honorable
Judge James E. Boasberg (JEB) of District Court for
the District of Columbia are in App. C, D. (case 1:16CV-00398-JEB).
The
second
Order
and
Memorandum of district court Judge are in App. E,
F.
JURISDICTION
The order of the U.S. Court of Appeals for the
District of Columbia Circuit was entered on January
30, 2019, (No. 17-5290, September Term, 2018), See
App-B. A timely petition for rehearing and rehearing
en banc was denied by the U.S. Court of Appeals for
the District of Columbia Circuit, which entered on
April 16, 2019. See App. A.
On June 7, 2019, for application 18A1265, Case
Analyst Clayton Higgins granted Petitioner
extension of time to file this petition to and including
September 13, 2019.

2

The jurisdiction of this Court is invoked under 28
U.S.C. §1254(1).
CONSTITUTIONS AND STATUTES INVOLVED
The First, Fifth, Fourteenth Amendments of U.S.
Constitution. 18 U.S.C § 249 Hate crime acts. All
laws related to employment discriminations and
retaliations, including but not limited to: Title VII of
the Civil Rights Act of 1964, as amended; 42 U.S.C. §
2000e et. seq.; NO FEAR ACT; and etc. Some
statutes reprinted in App. I.
STATEMENT OF THE CASE
A. Specialty
In general lawsuits, both parties have undisputed
and contented material facts. Then, they are looking
for judgments of laws on these facts. The similarity
of this lawsuit is there exists some both parties
undisputed and contented important core material
facts. But, the difference of this lawsuit is these
important core material facts and objects were been
concealed or covered up in lower court’s rulings.
Petitioner specially seeks and requests for
Judgments on these concealed or removed material
facts or objects. Upon which, a reasonable jury with
common senses could find or conclude Respondent
violated laws. When person reads the Court’s
rulings, who will think the judgment is fair. When
person reads these concealed, covered up or removed
some important core material facts or objects, as a
reasonable jury, could find Respondent violated laws
and want to revere the ruling of dismissal this suit.
Backgrounds

3

Basically, both parties, including Respondent’s
“consent and not opposite” material facts, laws, and
conclusions in followings, which: (a) were being
altered, destroyed, mutilated, or concealed in
“courts [did not] behave
rulings; and (b)
accordingly”, Kernan u. Hinojosa, 2016, 136 S.Ct.
1603; Ylst v. Nunnemaker, 1991, 111 S.Ct. 2590. See
App. 1.7.
Petitioner was a former federal government
employee
of the
Federal
Communications
Commission (FCC) about 24 years. At the FCC,
Petitioner was a top grade GS-15 level senior
electronics engineer for about 12 years, until being
constructively discharged by Respondent around
January 2016. At the FCC, Petitioner received
promotions, step increases, good or excellent
performance evaluations, and many performance
awards including cash awards. Petitioner is three
times co-author of publications with Nobel Prize
winners on Nobel Prize winning project. Petitioner
saved many million dollars for U.S. government, (she
never requested for money award), and significantly
contributed the winning of 2006 Nobel Physics Prize.
Petitioner is an Asian American foreign-born old
disabled woman.
Respondent is current FCC Chairman. Petitioner
claimed multiple counts in her original Complaint
and complained his intentional discriminations and
retaliations, and violating Constitution Fifth and
Fourteen Amendments to deprive petitioner of life,
and etc. Now, Petitioner would focus on one core
issue of: at work place, Respondent violated
Constitution Fifth and Fourteen Amendments to
deprive, or attempted to deprive her of life without

4

due process of law. Respondent knew this happening
of his managers acted to deprive Petitioner of life.
When he formerly was an FCC Commissioner,
Petitioner e-mailed him, FCC Chairman and other
commissioners, and requested to protect her life.
But, there was no high lever managers cared of
Petitioner’s life and helped her.
Respondent’s “consent and not opposite” (Kernan
v. Hinojosa, 2016, 136 S.Ct. 1603; and Ylst v.
Nunnemaker, 1991, 111 S.Ct. 2590, App. 1.7), and
had no fact nor law to oppose genuine material facts
and laws of his actions: — (a) “not acting under color
of law, willfully caused [many] bodily injuries] to
[Petitioner] because of the race or national origin”,
18 U.S.C. §249,(a)(1), see App. 1.4; and (b) “not
recklessly: engage [d] in conduct that create[d]
[many] substantial risk[s] of death or serious
physical injury to [Petitioner]” at work place,
Maryland Criminal Law § 3-204 Reckless
endangerment (a)(1), App. 1.5.
Petitioner did not and cannot sue Respondent’s
criminal violations. Because Respondent’s actions
could be more precisely or properly described or
summarized by words in criminal laws, wherefore,
she borrowed, used, or cited these words in her
complaints. Respondent insists his unlawful actions.
Until now, he had no any apology and no
compensation to Petitioner. Until now, Respondent
did not receive any punishment on his unlawful
actions.
Petitioner is an Asian American foreign-born old
disabled weak woman. For unknown reasons, lower
court
protected
law
violator
Respondent.
Aforementioned important core material facts and

5

objects of Respondent violated Constitution fifth and
fourteenth Amendments and more were been
altered, destroyed, mutilated, or concealed in lower
courts’ judgments (see App. A,B,C,D,E,F,G), even
both parties consented these important core material
facts or objects.
1. Respondent willfully caused many bodily
injuries and substantial risks of death to
Petitioner.
Respondent (and his two managers Doczkat and
Johnston) attempted to deprive Petitioner’s life.
Respondent “not acting under color of law,_willfully
caused [many] bodily injuries] to Petitioner because
of her race or national origin”, 18 U.S.C. §249, (a)(1)
App. 1.4. Defendant knowingly and not “recklessly
created many substantially risks of death or serious
physical injuries to [Petitioner]” (Maryland Criminal
Law, §3-204,(a)(1), App. 1.5).
Before Respondent (with his two managers)
discriminately concluded her bad performance and
disqualified for GS-15 position, Petitioner was health
and her blood pressure was normal even without
medicine. After Respondent (and Doczkat, Johnston)
discriminatorily attacked and concluded her
performances were disqualified for GS-15 and bad,
when they communicated with her, they always or
frequently caused Respondent’s blood pressures un­
controllably and promptly raised to life-threatening
high level, (about 180 mmHg, the highest was 223
mmHg). Peoples, including Respondent, with
common senses would know that with such high
blood pressures had caused Petitioner suffered many
substantial risks of death or serious physical injures
to her, such as stroke, cerebral and brain

Vk

6

hemorrhage, cerebral rupture, brain death, heart
attack, angina pectoris and many other life-threaten
diseases.
During that time, her blood pressures were
normal and did not rise when other persons and
other supervisors communicated with her.
Petitioner, FCC on-site nurse, FCC union
chairwoman, and doctors multiple times requested to
move her from direct contact with appointed acting
branch chief Doczkat and instead assign her to other
supervisors. Respondent refused all these requests,
and enjoyed very much that he created many
substantial risks of death and serious bodily injures
to Petitioner. Petitioner and her many supporters
(App. H) hopes Constitution could respect and
protect her life - the most important treasure of all
she has. Petitioner could NOT take many
substantial risks of death or serious physical injures
to work. Petitioner believes, that no any person,
including Respondent himself, would take any
unnecessary high risk of death to work.
Then, Respondent (and Doczkat) concluded “fail”
in Petitioner’s performance evaluation, denied her
within grade step increase, and other actions against
Petitioner. No matter how well she performed,
Respondent or they purposed and predetermined
that her performance were bad, (see following facts).
Based on what she suffered and experienced from
Respondent, to avoid dying at workplace as
Respondent wanted, and being fired as Respondent
planed, Petitioner constructively discharged and left
FCC around January 2016. Petitioner was
substantially been forced to leave the position, which

7

she loved, contributed, and worked for more than 24
years of her best times in her life.
2. Respondent must respond for Petitioner’s
sickness, which caused by his discriminations.
Respondent’ discriminatory conclusions of her
performance were disqualified for GS-15 and bad,
caused Petitioner became very sick. After that, when
two
managers
(Doczkat
and
Johnston)
communicated with her, it always or frequently
caused Petitioner’s blood pressures un-controllably
and promptly raised to life-threaten high (about 180
mmHg).
Before Respondent (and Doczkat)’s bad conclusions
on her, Petitioner was very healthy. Petitioner’s
blood pressures were normal even without medicine.
Respondent’s bad or malicious conclusions on her,
caused her became sick. After they concluded and
attacked her without fact and law, (see following
oaragraph) that she disqualified for GS-15 and bad
performance, when they communicated with her,
Petitioner’s blood pressures un-controllably and
promptly raised to very high, life-threatening levels
(about 180 mmHg, highest 223 mmHg).
3. Without
supporting
fact
and
law,
Respondent and newly appointed acting
branch
chief
Doczkat
discriminatorily
concluded Petitioner’s performance were
unacceptable GS-15 level and bad.
Petitioner was tasked to study and report
wireless microphones at U.S. markets by former

8

branch chief Mr. Robert Weller (Weller) around
April, 2014. Mr. Weller left FCC around end of July,
2014. Then, Respondent non-competitively appointed
Martin Doczkat as acting branch chief. Few days
after that, Respondent and Doczkat concluded and
attacked that Petitioner’s performances were
unacceptable GS-15 and bad, on this study report.
Any one, more or all following facts and laws
obviously evidenced Respondent’s intentional
discriminations
against
Petitioner
for
his
conclusions.
(a) Doczkat is an U.S. born young White man, and is
about 25-30 years younger than Petitioner. Around
August 2014, Doczkat was only at GS-15 position
(non-competitively appointed) few months (about 4
months). Petitioner performed at GS-15 position
about ten and half years. Peoples with common
senses could reasonably see that Doczkat obviously
had less GS-15 working experience comparing with
Petitioner and all other GS-15 level employees in the
same branch.
(b). Doczkat wrote to Petitioner on 9/11/2014: “As a
GS-15 electronics engineer specialized in radio
communications system .... you are expected to
originate novel approaches ...”. “Further in your role
as a GS-15, you are expected to conduct original
studies
on
spectrum
utilization
involving
simultaneous transmission ...”. He thought
Petitioner did not do what he expected. Petitioner
questioned him, did he mean that he concluded that
she disqualified for GS-15 and bad performance. He
consented (Kernan v. Hinojosa, 2016, 136 S.Ct. 1603;
Ylst v. Nunnemaker, 1991, 111 S.Ct. 2590; App. 1.7)

9

• •:.

and did not correct her if that was .Petitioner’s
misunderstanding, while he has duty to correct her.,
(c) The pretexts of Respondent (and Doczkat) used
for conclusion of Petitioner’s unacceptable GS-15
were NOT in the written work assignment. And
former branch chief Mr. Weller did not and never tell
her to do it.
(d) Pursuant to the Agreement, between the FCC and
the Union, and multiple regulations of U.S.
government, her former supervisor Mr. Weller must
fully respond the result of the report, based on
Petitioner
fully
followed
his
instructions.
Respondent had no any evidence of Petitioner did
not. Wherefore, Respondent (and Doczkat) must first
conclude Mr. Weller disqualified for GS-15 and bad
performance, but he did not conclude such.
(e) Respondent (and Doczkat) must conclude all
Petitioner’s former more than 10 year’s supervisors
disqualified for their positions at GS-15 or senior
executive service (SES), based on they consistently
did not find Petitioner disqualified for GS-15 for
more than 10 years, but Doczkat concluded it few
days when he became acting branch chief, and few
months being GS-15.
(f) Petitioner responded each and all Doczkat’s 83
comments on the report, and asked his further
response. Respondent (and Doczkat) did not provide
further written response, but “consent and not the
opposite” (Kernan v. Hinojosa, 2016, 136 S.Ct. 1603;
and Ylst v. Nunnemaker, 1991,111 S.Ct. 2590, App.
1.7) all of her responses and evidenced his
conclusions were totally wrong.
(g) Respondent (and Doczkat) did not attack
Petitioner on technical issues in the report. Except

10

one sentence, he did not criticize her English in the
report. Even there were technical errors, Respondent
must first conclude Mr. Weller disqualified for GS15, not Petitioner. Respondent predetermined and
purposed to conclude Petitioner’s bad performance,
then, Respondent always could fabricate many
pretexts for their predetermined purposes.
(h) Former supervisor Mr. Weller asked Petitioner to
submit the final version on 7/10/2014, for he to
review it before he left FCC, based on her memory.
Petitioner submit the final version to him before that
day. Mr. Weller had no any negative comment on the
report, before he left FCC about 20 days later.
(i) Facts showed and would reasonably question this
task on Petitioner was their purpose to fabricate
pretexts attacking her. Based on: (1) Petitioner
usually worked on projects which from the front
office of Office of Technology and Engineering (OET),
FCC Chairman’s office, or higher; but this task was
not; (2) Managers refused her requests to add more
employees to work on it, because he did not want to
attack other employees; (3) no any other person
(except two branch chiefs) read it; and (4) When
Petitioner was sick for about half year, no any other
employee continually worked on it. All these facts
evidenced that this task is Respondent wasted
taxpayers’ money, and for him fabricated pretexts
Petitioner.
attacking
(j) Any one, more, or all of aforementioned facts,
laws, and arguments could clearly evidence
Respondent erred in his discriminatory conclusions
of Petitioner’s bad performance and disqualified for
GS-15. Until now, Respondent insists his errors,
without any apologize and compensation to

11

Petitioner. This fact evidenced that Respondent’s
errors were his intentions.
B. Court Procedures
On October 16, 2016, honorable Judge James, E.
Boasberg (JEB) of U.S. District Court for District of
Columbia erroneously dismissed most counts except
one count. This remaining count claimed that
Respondent denied Petitioner’s within grade step
increase (grade GS-15, from step 7 to step 8) around
February 2015. Respondent argued that Petitioner
failed to exhaust administrative remedies on this
count. Both parties, including Respondent’s “consent,
not the opposite” evidenced material facts. The true
material facts were: Respondent did not and never
started his administrative remedies, when Petitioner
contacted the Office of Workplace Diverse (OWD)
and asked for an EEO counselor. But the district
“court [DID NOT] behave accordingly, affirming
without further discussion when they agree, not
when they disagree,” Kernan v. Hinojosa, 2016, 136
S.Ct.l603;YZs£ v. Nunnemaker, 1991, 111 S.Ct. 2590,
App. 1.7. District Court Judge failed to explain how
never
existed
the
Petitioner
exhausting
administrative remedies. On September 15, 2017,
District Court Judge unfairly dismissed this lawsuit,
while no one opposed Petitioner’s multiple motions.
See App. E, F.
On January 30, 2019, the U.S. Court of Appeals
for District of Columbia Circuit erroneously notpublish ruled and affirmed the lower court’s
decision, (see App. B) On April, 16, 2019, the U.S.
Court of Appeals for District of Columbia Circuit
erroneously or unfairly denied petitioner’s petition

12

for rehearing en banc, (see App. A). Where, similarly,
Respondent’s “consent and not-opposite” Id. many
material facts, laws, arguments, and conclusions in
her multiple motions, did not get “courts behave
accordingly, affirming without further discussion
when they agree, not when they disagree,” Id.
The important things are lower court altered,
destroyed, mutilated, or concealed both parties
“consent and not opposite” Id. (App. 1.7) important
core material facts and objects. For example,
Respondent willfully caused many bodily injuries to
Petitioner (see App. 1.4), and knowingly caused her
suffered many “substantial risks of death or physical
injuries to her”, Maryland Criminal Law, (see App.
1.5). Based on these being concealed material facts
and objects, a reasonable jury would find and
conclude that Respondent violated laws and is guilty.
Also, lower court disparately and adversely
treated and ruled against Petitioner, based on she is
an Asian American foreign-born old (more than 67
years now) disabled woman, and is a member of
statutes protected class. Petitioner and many of her
supporters do not understand why federal statutes
did not and could not comply on her lawsuits. All
peoples hope that there could be a fair and just
place, for an Asian American foreign-born old
disabled woman does not suffer a real “miserable
world” treatments in her life.
REASONS FOR GRANTING THE PETITION
Question 1(a) — Whether lower court could not
comply Supreme Court’s two rulings of
silence implies consent, not the opposite—and
courts generally behave accordingly, affirming

13

without further discussion when they agree,
not when they disagree”, Kernan v. Hinojosa,
2016, 136 S.Ct. 1603; Ylst v. Nunnemaker, 1991,
111 S.Ct. 2590; and about 33 U.S. courts
complied it. App. 1.7.
There are about or more than 33 U.S. Courts
cited and complied aforementioned rulings of
Supreme Court, see page 62a to 68a. But Petitioner
- a member of statutes protected class, was been
excluded by the lower courts’ rulings of her lawsuits.
Respondent implied his “consent and not-opposite”,
Id. many of Petitioner’s motions included its
consents of material facts, laws, and conclusions. But
lower court did not and never comply Supreme
“courts generally behave
Court’s rulings of
accordingly, affirming without further discussion
when they agree, not when they disagree,” Id. App.
1.7. And lower court dismissed her lawsuits. See
following examples of Petitioner filed motions at
District of Columbia Circuit.
See Petitioner filed first group motions around
end of May 2018. For all of these motions,
Respondent implied his “consent and not-opposite”,
Id., included its contents of material facts, laws, and
conclusions. But lower court did not and never
comply Supreme Court’s rulings of “courts generally
behave accordingly, affirming without further
discussion when they agree, not when they
disagree,” Id. App. 1.7. Lower court dismissed this
lawsuit for not publish it, on April, 2019, (see App.
A, B). See Petitioner filed:
“Motion for clarification of District Court’s factual
findings, which concealed or removed physical

14

evidences (MD Criminal Law, § 9-307) on Appellees
of
Appellant
discriminatory
conclusions
disqualifying for GS-15 position”; around 5/22/2018.
“Motion for reversal and vacatur District Court’s
ruling on Appellees’ discriminatory conclusions of
appellant disqualifying for GS-15 position.” around
5/23/2018.
“Motion for clarification of District Court’s factual
findings and rulings, where “concealed or removed
physical evidences” (MD Criminal Law §9-307) of
Appellees knowingly “created many substantial risks
of death ... to appellant” at work place (MD Criminal
Law §3-204). Appellees caused appellant could not
work because to avoid her death, and deprived her
constitutional rights”, filed around 5/25/2018. And,
“Motion for reverse and vacate District Court’s
ruling on Appellees’ discriminations and retaliations
of (1) “willfully caused bodily injury to Appellant” (18
U.S.C.A §249); (2) “not recklessly created many
substantial risks of death to Appellant” (MD
Criminal Law §3-204); and (3) deprived her
constitutional rights of life”, filed around 5/29/2018.
On June 28, 2018, Petitioner filed her Brief, see
App. G. On August 31, 2018, Respondent filed
“Response in Opposition”. Based on Petitioner’s
knowledge or understanding, Respondent did not
opposed but consented (App. 1.7) many material fact,
laws, and conclusion in her brief. Wherefore, Petition
wanted to request honorable court to comply laws,
and she filed another group, about nine, motions on
October 31, 2018. Respondent did not oppose, had no

15

fact nor law to oppose, and implied his consent, (App.
1.7) all of following motions: 1.
“Motion (I) for the Court to affirm without further
discussion the material facts, laws, and conclusions
that U.S. District Court Judge erred in five “issues
presented for review” at her Brief (laws in fll).”
“Motion (II) for the court to affirm without
further discussion the material facts, laws, and
findings that appellees discriminatorily ‘concluded
appellant disqualified for a GS-15 Position’. Oppose
Appellees where they lied, misconstrued, altered, or
concealed the objects or facts, 18U.S.C.A §1512
(C)(1), etc.”
“Motion (III) for the Court to affirm without
further discussion the material facts, laws, and
findings that Appellees discriminatorily and.
retaliatorily attempted to ‘deprive of Appellant’s life
without due process of law’, and violated U.S. Const.
Amend. 1, 5, 14, etc., (laws in 1[II). Where Appellant
evidenced then Appellees consented.”
“Motion (IV) for the Court to affirm without
further discussion the material facts, laws, and
findings that Appellees discriminatorily and
retaliatorily ‘whether or not acting under color of
law, willfully caused bodily injury to Appellant’
(18U.S.C.A,§249). Where facts and laws evidenced
then Appellees consented.”
1 Court clerk changed some Petitioner’s “Motion” to “Reply”.
Petitioner disagrees it. Petitioner’s motions were what she
respectfully requested court to do. Also, Based on her
understanding, (see Local Rule 27), there is no constrain to file
motions. Also, “Reply” must be filed within certain days. She
guesses that deadline of fling “Reply” might be passed already.

■:

16

“Motion (V) for the Court to affirm without
further discussion the material facts, laws, and
findings that Appellees discriminatorily and
retaliatorily “denied Appellant’s within grade step
increase”, and violated 42U.S.C.^2000e-16(c) and
U.S. Const. Amend. 1. Which Appellant evidenced
then Appellees consented. Oppose Appellees where
they lied, misconstrued, altered, or concealed the
objects or facts, 18U.S.C.A § 1512(c)(1),etc.”
“Motion (VI) for judges to contact an authority
who can initiate criminal cases (18U.S.C.A.§4,§3,
§2)”;

“Motion (VII) for a trial by jury.”
“Motion (IV) for Appellant to also seek damage
remedies under Bivens Actions, based on her
Constitutional Rights (Const. Amend. 1, 5, 7, 14)
have been deprived and violated.”. And
“Motion (IX) to stay processing on other less
important claims and issues, until after Court ruled
on those presented issues in Appellant’s Motions.”
Respondent did not oppose any or all of above
motions. Respondent’s “consent, and not-opposite” of
material facts and laws, had no facts nor laws to
support him, resulted lower “court [DID NOT]
behave accordingly, affirming without further
discussion when they agree, not when they
disagree”, Id. and about 33 U.S. courts complied it,
(see page 69a to 74a). Lower court did not grant
Petitioner’s motions, but dismissed her lawsuit.
Question 1(b) — Whether lower court could not
comply Supreme Court established McDonnell
Douglas burden-shifting framework; and

17

rulings of Price Waterhouse v. Hopkins 109
S.£t. 1775, (1989).

• •:

Respondent did not oppose but consented, Id.
material facts and laws of: (1) Petitioner is a member
of statutes protected class; (2) Respondent
disparately and adversely treated her as stated in
her Complaints and all counts; and (3) Respondent
failed to provide a legitimate, non-discriminatory or
non-retaliatory reason for his actions in paragraph
(2); wherefore, (4) Petitioner has established the
prima
facie
of
Respondent’s
intentional
discriminations and retaliations under Supreme
Court established McDonnell. Douglas burdenshifting framework. Then, these facts and laws were
altered, destroyed, mutilated, or concealed in
rulings. And, lower court unfairly dismissed this
suit.
Respondent needs or must, but he failed to
provide his statements, that he would have made the
same decisions and actions absent the race, sex,
national origin, age, disabled discriminations or
retaliations. Wherefore, facts established the prima
facie of Defendant’ intentional discriminations and
retaliations, under U.S. Supreme Court ruled in
Price Waterhouse v. Hopkins 109 S.Ct. 1775, (1989).
Then, these facts and laws were altered, destroyed,
mutilated, or concealed in ridings. And, lower court
unfairly dismissed this suit.
Question 1(c)- Whether lower court could not
comply Supreme Court’s rulings of “retaliation
...
constitute crimes and are therefore

•.

z

18

especially risky”, Burlington Northern and
Santa Fe Ry. Co. v. White, 2006,126 S.Ct. 2405.
“First, an employer who wishes to retaliate
against an employee for engaging in protected
conduct is much more likely to do so on the job.
There are far more opportunities for retaliation in
that setting, and many forms of retaliation off the
job constitute crimes and are therefore especially
risky.”,JBurlington Northern and Santa Fe Ry. Co. v.
White, 2006,126 S.Ct. 2405.
“It was a landmark case for retaliation claims. It
set a precedent for claims which could be
considered retaliatory under Title VII of the Civil
Rights Act of 1964. In this case the standard for
retaliation against a sexual harassment complainant
was revised to include any adverse employment
decision or treatment that would be likely to
dissuade a ‘reasonable worker’ from making or
supporting a charge of discrimination.”, https://en.
wikipedia.org.
Supreme Court stated are what happened on
Petitioner, that “an employer [Respondent] who
wishes to retaliate against an employee [Petitioner]
...is much more likely to do so on the job. There are
far more opportunities for retaliation, and many
forms of retaliation constitute crimes and are
therefore especially risky.” Supreme Court ruled
“many forms retaliation ... constitute crimes”, as
Respondent acted. But, lower court dismissed
Petitioner’s lawsuit.
Question 2 — Whether any one or court could
prevent, relieve, comfort, or assisted in
prevent Respondent’s punishment, when he

19

violated Constitution 5th and 14th Amendments
to deprive Petitioner of life without due
process of law.
Constitution Fifth and Fourteen Amendments’
equal protection respect, care, and protect
Petitioner’s life. No one could unlawfully to deprive
Petitioner of life without due process of law. But,
Respondent did such actions. Petitioner’s “consent
and not-opposite”, Id. on material facts and laws of
he acted to deprive Petitioner of life, without due
process of law, at work place. Respondent “consented
and not-opposed” App. 1.7 Petitioner’s “Motion (III)
for the Court to affirm without further discussion
the material facts, laws, and findings that Appellees
discriminatorily and retaliatorily attempted to
‘deprive of Appellant’s life without due process of
law’, and violated U.S. Const. Amend. 1, 5, 14, etc.,
(laws in T|II). Where Appellant evidenced then
Appellees consented.” This motion submitted to D.C.
Circuit on 10/31/2018.
Respondent applied his “consent, and notopposite” Id. for all of Petitioner aforementioned
abput 13 motions, which submitted in D.C. Circuit.
Lower court persistently did not comply Supreme
Court’s rulings (App. 1.7), but dismissed this lawsuit,
(App. A, B).
Question 3 — Whether any one or court could
alter, destroy, mutilate, or conceal both parties
consented important core material facts or
objects in court proceedings?
Aforementioned facts and laws showed lower
courts altered, destroyed, mutilated, or concealed
both parties consented important core material facts
and objects. For example, Respondent implied his

20

“consent and not-opposite” (Kernan v. Hinojosa,
2016, 136 S.Ct. 1603; and Ylst v. Nunnemaker, 1991,
111 S.Ct. 2590, App. 1.7) genuine material facts and
laws of, at work place, he: (a) violated 5th and 14th
Amendments of Constitution; (b) “not acting under
color of law, willfully caused [many] bodily injuries]
to [Petitioner] because of the race or national origin”,
(18 U.S.C. § 249(a)(1), App. 1.4); and (c) “not
recklessly: engage[d] in conduct that create[d]
[many] substantial risk[s] of death or serious
physical injury to [Petitioner]” (Maryland Criminal
Law §3-204, App. 1.5). Defendant has no fact, no
evidence, and no law to oppose it. Lower court judge
admitted these both parties consented important
core material facts or objects; but these facts and
laws were been altered, destroyed, mutilated, or
concealed in rulings. See App. A, B, C, D, E, F. Then,
lower court dismissed this lawsuit.
Question 4 — Whether the bodily or personal
injured victim could seek compensations at
civil court or justice, on discriminations and
retaliations, which caused by defendant “not
acting under color of law, willfully caused
many bodily injuries to Petitioner, because of
the race or national origin”?
For the general practices, a victim suffered bodily
or personal injury could legally seek civil justice of
defendant’s criminal actions. See: (a) “Civil Justice
for Victims of Crime”, where, stated “any crime
victim may be able to file a civil lawsuit against a
perpetrator or other responsible party”, https://
victimsofcrime.org,- (b) “An assault can give rise to
both criminal charges and a personal injury civil

21

lawsuit.”, www.alllaw.com; (c) “Civil Justice for
Victims of Crime”, http://co.marion.or.us.
See the famous O.J. Simpson case: “In 1994,
Simpson was arrested and charged with the murders
of his ex-wife, and her boyfriend. He was acquitted
by a jury. In 1997 a civil court awarded $33.5 million
judgment against him for the victims' wrongful
deaths.”, https://en.wikipedia.org. Underlying the
identical material facts, Simpson could be sued by
civil court (where he lost); and criminal court (were
he did not lose). This fact evidenced that for
Respondent’s actions, the victim Petitioner could file
ciyil complaints at civil court, while using the words
or terminologies in criminal laws.
Petitioner called and contacted multiple law
firms, and was clearly and 100% firmly told that a
bodily or personal injury victim could file civil
lawsuits for defendant’s criminal actions. But they
failed to provide a statute of it. Wherefore, to accept
this petition is very important, which will resolve the
conflict issues in laws and procedures.
Petitioner continually stated in court that she did
not sue Respondent’s criminal actions, but used
those words in criminal laws, demonstrated his
intentional discriminations and retaliations.
Lower courts ruled that Respondent’s criminal
actions must b,e sued in criminal court.
“having
Additional question: when peoples
knowledge of the actual commission of a felony [of
Respondent] cognizable by a court of the United
States, ...... make known the same to some judge”,
(see 18 U.S.C. §4). Does the judge has the duty not to

;•

22

conceal these criminal actions, but further process
it?
5. Multiple mediums, and thousands and
thousands peoples, concern petitioner’s life
and support her lawsuits.
Petitioner shouts loudly not only for herself, but
also for other similarly suffered minorities.
Petitioner has many many supporters. There are
multiple mediums, about 30 organizations, (which
estimate leading and representing more than 22,400
peoples), all concern and support her lawsuits
against Respondent. See App. H. Multiple mediums
published her stories for the public to know what
happening. The “Alliance Cultural Media, Inc.,
(ACM)” published it at YouTube, where for ACM
only, it has about 195,000 subscribers. DCTV,
Fairfax Public Access TV station, Greenbelt Access
Television and/or more TV stations published it.
These and more TV stations, newspapers, websites,
WeChat (Chinese Americans spread news) and more,
would publish more stories for it. Because it has
important issues, which are concerned by the
peoples. All of them support and concern Petitioner,
and sincerely hope Honorable Judges to accept the
petition, resolve questions and disputes, and order
fair judgments on it.
6. Comments, “EQUAL JUSTICE UNDER LAW” a phrase engraved on the front of this building.
This instant case, indeed, is exceptional
importance. It is illogical, irrational and inconsistent
to have dismissed the discrimination, retaliation,
and equal protection claims against Respondent,
while important material facts, laws, or objects were

23

being altered or concealed. Dismissing this suit,is
obviously contrary to “EQUAL JUSTICE UNDER
LAW” -- a phrase engraved on the front of this
building. “[T]he denial of equal justice is still within
the prohibition of the constitution.” Yick Wo v.
Hopkins, 118 U.S. 356, 374 (1886).
Lower court dismissed this lawsuit contradicts
that “....when ruling on a defendant’s motion to
dismiss, a judge must accept as true all of the factual
allegatio Lower court dismissed this lawsuit
contradicts that ns contained in the complaint.”
Erickson v. Pardus, 551 U.S. 89, 93 (2007) (citations
omitted).
Lower court dismissed this lawsuit contradicts
that “where there is a legal right, there is also a
legal remedy...” Ziglar v. Abbasi, 137 S. Ct. 1843,
1874 (2017) (citation omitted) (Breyer, J.,
dissenting). Dismissing this suit was also contrary
to: “'No man in this country is so high that he is
above the law. No officer of the law may set that law
at defiance with impunity. All officers of the
government, from the highest to the lowest, are
creatures of the law, and are bound to obey it.” Davis
v, Passman, 442 U.S. 228, 246 (1976) (citations
omitted). It seems that the Supreme Court has not
settled an employment case related to Petitioner
suffered from Respondent, see above Questions and
statements.
The Supreme Court, furthermore, repeatedly
reminded that government employees’ speech is
often most valuable when it concerns a subject they
know best: their jobs. See, Waters v. Churchill, 511
U.S.
661,
674 (1994)
(plurality opinion)

)

24

(“Government employees are often in the best
position to know what ails the agencies for which
they work;...”). “The discharge of one tells the others
that they engage in protected activity at their peril.”
Heffernan v. City of Paterson, 136 S. Ct. 1412, 1419
(2016) (citation omitted).
If permitted the outcome to stand uncorrected, it
would likely introduce confusion into the body of the
law in nationwide. The principles involved, also, are
important to others and likely to arise frequently.
Petitioner plans to have a lawyer representing
her, when her petition is granted.
CONCLUSION
The Petition for a Writ of Certiorari
Should Be Granted
Respectfully submitted
Qihui Huang, M.S.________
P.O. Box 34014
Bethesda, Maryland 20827
(240) 423-0406
qhh@hotmail.com.com
Petitioner, Pro Se
Dated on: September 11, 2019

